No.

IN THE

SUPREME COURT OF THE UNITED STATES

DWAYNE SHECKLES, Petitioner
VS.
UNITED STATES OF AMERICA, Respondent
PROOF OF SERVICE

I, Kevin Schad, Assistant Federal Public Defender for the Southern District of Ohio,
do swear or declare that on this date, July 224, 2021, as required by Supreme Court
Rule 29, I have served the enclosed MOTION FOR LEAVE TO PROCEED IN
FORMA PAUPERIS and PETITION FOR A WRIT OF CERTIORARI on each party
to the above proceeding or that party’s counsel, and on every other person required
to be served, by depositing an envelope containing the above documents in the
United States Mail properly addressed to each of them and with first class postage
prepaid.

The names and addresses of those served are:
Office of the Solicitor General
950 Pennsylvania Ave., NW
Washington, D.C. 20530-0001

I declare under penalty of perjury that the foregoing is true and correct.

Executed on July 22nd, 2021.

 

J _—
Za ~ 2
Kevin M. Schad
Attorney for Petitioner
Office of the Federal Public Defender
Southern District of Ohio
250 E. Fifth St. Suite 350
Cincinnati OH 45202
(513) 929-4834
Fax (513) 929-4842
Kevin schad@fd.org
